TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Oversight and Accuracy of Tax Returns
                       Continue to Be Problems for the
                  Volunteer Income Tax Assistance Program



                                         August 31, 2006

                              Reference Number: 2006-40-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 31, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                        (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Oversight and Accuracy of Tax Returns Continue
                              to Be Problems for the Volunteer Income Tax Assistance Program
                              (Audit # 200640013)

 This report presents the results of our review to determine whether taxpayers received quality
 service, including the accurate preparation of their income tax returns, when visiting Volunteer
 Income Tax Assistance (VITA) sites.1 We also assessed the ease with which taxpayers can
 locate VITA sites and obtain information about the specific services offered and assessed the
 Internal Revenue Service’s (IRS) process for ensuring the overall quality of VITA Program
 operations. This audit is a follow-up to prior Treasury Inspector General for Tax Administration
 (TIGTA) reviews.2

 Synopsis
 Prior TIGTA reviews identified that tax returns were not correctly prepared by VITA volunteers
 because the volunteers did not gather key taxpayer information, did not refer to the Interview and
 Intake Sheet (Form 13614) or resource guides when preparing tax returns, and did not perform
 required quality reviews of completed tax returns. In addition, taxpayers could not rely on the
 IRS’ information for VITA site locations, hours of operation, and scope of services because
 controls to ensure site information was accurate were not followed consistently. Furthermore,


 1
   Testing did not involve VITA sites associated with the military or the Tax Counseling for the Elderly Program.
 2
   Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
 Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004) and Significant Improvements
 Have Been Made in the Oversight of the Volunteer Income Tax Assistance Program, but Continued Effort Is Needed
 to Ensure the Accuracy of Services Provided (Reference Number 2006-40-004, dated November 2005).
                          Oversight and Accuracy of Tax Returns Continue to Be
                        Problems for the Volunteer Income Tax Assistance Program



although a comprehensive quality assurance process was proposed, obstacles prevented the
implementation of an effective process.
The Stakeholder Partnerships, Education, and Communication (SPEC) function responsible for
overseeing the IRS VITA Program continues to remain committed to providing top-quality
service to all taxpayers, especially low- to
moderate-income, elderly, disabled, and                 VITA accuracy rates have improved
limited-English-proficient taxpayers. However,           from 0 percent for the 2004 Filing
although a comprehensive quality assurance                  Season to 39 percent for the
process was proposed in response to one of the                  2006 Filing Season.
prior TIGTA reviews, significant barriers
continue to diminish the SPEC function’s ability to provide quality customer service at VITA
sites and to measure the accuracy of prepared tax returns. These barriers include volunteers not
adhering consistently to the SPEC function’s processes for ensuring the accuracy of tax returns
and the SPEC function’s inability to implement an effective quality assurance process.
Specifically, the local intake sheets did not contain all required questions or were not prepared
completely, volunteers did not use the information contained on the Forms 13614 and did not
refer to resource guides, and required quality reviews of completed tax returns were not
performed. As a result, 22 (61 percent) of the 36 tax returns prepared by VITA volunteers for
TIGTA auditors were incorrect. If 4 (18 percent) of these incorrectly prepared tax returns had
been filed, the taxpayers would not have received $4,411 in tax refunds to which they were
entitled. Alternatively, if the remaining 18 (82 percent) of the 22 incorrectly prepared tax returns
had been filed, the IRS would have refunded $31,828 incorrectly.
The IRS is moving away from providing tax preparation assistance at its Taxpayer Assistance
Centers3 and is relying more on the VITA Program and its partners to provide this service. This
                                     presents significant challenges to the IRS and the
   Volunteers and their partner      SPEC function. The strengths of the VITA Program lie in
  organizations play a significant   its volunteers and partners. However, relying on volunteers
     role in the IRS’ tax return     to deliver the Program has inherent risks.
           preparation program.
                                       The SPEC function must balance the needs and desires of
                                       the volunteers with the IRS’ mission and goals. As it
strives to achieve its mission and goals and provide accountability for its operations, the SPEC
function will have to continually assess and evaluate its internal control structure to ensure the
VITA Program is providing accurate and reliable measurements, particularly measurements
related to the accuracy of tax returns prepared.
Improvements are needed to ensure the VITA Program quality assurance program provides
accurate measurements. The SPEC function has developed procedures and controls as part of its

3
    Taxpayer Assistance Centers are operated by the IRS to provide walk-in service for taxpayers.
                                                                                                     2
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



Volunteer Return Preparation Program Quality Improvement Plan, and the Plan is in the early
years of implementation. However, certain procedures are not being followed, and not all
controls are effective for the Quality Improvement Plan to meet intended goals. Tax returns are
not selected randomly for review, Territory managers are not in compliance with the directive to
accompany tax specialists on reviews, and documentation supporting VITA Program accuracy
measures is not maintained. The decision to not maintain documentation supporting return
reviews was based largely out of consideration for maintaining effective partner relations.
Finally, VITA site information used by IRS toll-free telephone assistors was not always accurate.
The VITA site information provided by IRS toll-free telephone assistors was inaccurate for
39 (33 percent) of 117 sites tested. In all 39 instances, the errors identified resulted from
inaccurate manual transfer of information from the SPEC Volunteer Site Information Sheet
(Form 13715) into the computerized system that makes the information available to IRS toll-free
telephone assistors.

Recommendations
The Commissioner, Wage and Investment Division, should (1) require VITA sites to use the
Form 13614 and require the Form to be prepared by the taxpayer to ensure it is prepared
accurately; (2) ensure training continues to emphasize the need to use the various quality
assurance tools, including using the Form 13614, referring to reference guides, and ensuring all
tax returns are subjected to required quality review; (3) establish a process to ensure accuracy
results are verifiable and validated (this process should ensure source documentation is
maintained to support tax return reviews); and (4) develop a process to verify periodically
whether VITA site information is entered accurately into the system used by toll-free telephone
assistors.

Response
IRS management agreed with all of our recommendations but did not agree with one portion of
our third recommendation. The SPEC function will continue to require each site to use
Form 13614 or the partner’s equivalent to prompt return preparers to ask questions necessary for
accurate completion of the tax returns. The SPEC function will revise its tools (forms, training,
and guidance documents) for both the return preparation and review processes based on findings
from reviews, partner and employee feedback, and TIGTA results.
The SPEC function will establish an independent process to validate the accuracy reported and
provide systemic improvements. The SPEC function will also implement shopping reviews that
use scenarios representative of its customer base to assess the customer experience. Finally, the
SPEC function will strengthen the process for selection of returns for review by SPEC function
employees.

                                                                                                    3
                          Oversight and Accuracy of Tax Returns Continue to Be
                        Problems for the Volunteer Income Tax Assistance Program



However, the IRS did not agree with requiring partners to maintain source documents used by
volunteers in preparing tax returns. The IRS believes this likely would erode effective
IRS-partner relations by significantly increasing partner operational burden and costs, as well as
require considerable new security infrastructure. The IRS also did not agree that reviews should
be unannounced because announced visits promote collaborative ownership of quality service.
The IRS believes there is no evidence that announced visits skew return selection or accuracy
results any more or less than unannounced visits.
Lastly, the SPEC function will continue to use the validation process developed during the 2006
Filing Season4 and will enhance the process further by including the following:
•      SPEC function management will be required to validate input in the SPEC Taxpayer
       Assistance Reporting System (STARS) site module and certify its accuracy.
•      Form 13715 will require the initials of the employee inputting the data in the SPEC
       Taxpayer Assistance Reporting System and of management’s concurrence with its accuracy.
Management’s complete response to the draft report is included as Appendix VIII.

Office of Audit Comment
In other IRS service areas such as the Taxpayer Assistance Center Program and the toll-free
telephone operation, the IRS has recognized the importance of maintaining documentation to
support quality and ensure the correct application of the tax law. Maintaining documentation for
quality review purposes is a standard practice throughout the IRS and private industry. If
documentation is not maintained, the IRS does not have the ability to validate its quality results.
In addition, the physical presence of a reviewer establishes an artificial situation for the
volunteers and inhibits the accurate assessment of performance. The IRS has acknowledged that,
when using direct observations in its Taxpayer Assistance Center Program and toll-free
telephone operation, the results were skewed. Thus, the IRS has used and is using Contact
Recording instead of direct observations to provide quality review results. Because Contact
Recording is not currently a viable option for the VITA Program, the IRS should attempt to
alleviate this limitation by not announcing visits, which allows the volunteers an opportunity to
prepare and reinforce their controls and procedures.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.


4
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        4
                           Oversight and Accuracy of Tax Returns Continue to Be
                         Problems for the Volunteer Income Tax Assistance Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 7
          Inaccurate Tax Returns Resulted From Inconsistent Quality
          of Service at Volunteer Income Tax Assistance Sites ..................................Page 7
                    Recommendations 1 and 2: ..............................................Page 19

                    Recommendation 3: .................................................................. Page 20

                    Recommendation 4: .................................................................. Page 21


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 22
          Appendix II – Major Contributors to This Report ........................................Page 24
          Appendix III – Report Distribution List .......................................................Page 25
          Appendix IV – Sites Reviewed and Volume of Tax Returns Prepared
          During the 2006 Filing Season .....................................................................Page 26
          Appendix V – Results of Tax Returns Incorrectly Prepared
          at Volunteer Income Tax Assistance Sites....................................................Page 27
          Appendix VI – Accuracy of Eligibility Determinations ...............................Page 28
          Appendix VII – Tax Preparation Information Sheet.....................................Page 29
          Appendix VIII – Management’s Response to the Draft Report ...................Page 31
                        Oversight and Accuracy of Tax Returns Continue to Be
                      Problems for the Volunteer Income Tax Assistance Program




                                             Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program
originated in 1969 due to enactment of the Tax Reform Act of 19691 and an increased emphasis
on taxpayer education programs. Emphasis has focused continually on expanding the
VITA Program through increased recruitment of social service, nonprofit, corporate, financial,
educational, and government organizations; involvement of the military on a national level; and
expansion of assistance provided to the limited-English-proficient community. The locations of
VITA sites are often neighborhood centers, libraries, schools, churches, and shopping malls.
The VITA Program plays an increasingly important role in the IRS goal of improving taxpayer
service and facilitating participation in the tax system. The VITA Program provides no-cost
Federal tax return preparation and electronic filing (e-filing) targeted to underserved segments of
individual taxpayers, including low- to moderate-income, elderly, disabled, and
limited-English-proficient taxpayers. These taxpayers frequently are involved in complex
family situations that make it difficult to correctly understand and apply the tax law.
Oversight of the VITA Program is the responsibility of the IRS Stakeholder Partnerships,
Education, and Communication (SPEC) function. The SPEC function is responsible for
determining policies and procedures, developing products and training material, and monitoring
and managing VITA Program activity. The SPEC function’s business objectives include
increasing access to VITA sites for low-income taxpayers, increasing e-filing, and enhancing tax
return accuracy.
The VITA Program includes sites operated in
partnership with the military, community-based       For the 2006 Filing Season, taxpayers
sites operated in partnership with various            visiting community-based VITA sites
                                  2
community-based organizations, and sites              to prepare and e-file their tax returns
                                                         potentially saved a minimum of
operated by the Tax Counseling for the Elderly         $41 million (based on the lowest tax
and the American Association of Retired                 return preparation fee charged by
Persons. Our audit included an assessment of           leading tax preparation companies).
tax returns prepared at community-based
VITA sites only, which during the 2006 Filing
Season3 were involved in the preparation of 698,302 tax returns.



1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Some community-based VITA sites are co-located in buildings occupied by one or more IRS offices.
3
  The 2006 Filing Season relates to the processing of Tax Year 2005 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 1
                      Oversight and Accuracy of Tax Returns Continue to Be
                    Problems for the Volunteer Income Tax Assistance Program



Figure 1 provides a breakdown of the Volunteer Return Preparation Program and volumes of tax
returns prepared during the 2005 Filing Season.
                       Figure 1: Tax Year 2004 Tax Returns Prepared
                         by Volunteer Return Preparation Program




    Source: IRS management information system containing all Tax Year 2004 tax return data.

Prior audits identified improvements were needed to ensure tax returns are
prepared correctly at VITA sites4
Prior Treasury Inspector General for Tax Administration (TIGTA) audits identified that tax
returns were not prepared correctly by VITA volunteers because volunteers often did not gather
key taxpayer information, did not refer to the Interview and Intake Sheet (Form 13614) or
resource guides when preparing tax returns, and generally did not perform a quality review of the
completed tax returns. Frontline VITA volunteers did not reliably receive Quality Alerts, which
proactively address emerging issues affecting the quality of tax return preparation, due to the
absence of an effective distribution process. In addition, taxpayers sometimes received
inaccurate information about VITA site locations, hours of operation, and scope of services from
the IRS because controls to ensure site information was accurate were not always followed.


4
  Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004) and Significant Improvements
Have Been Made in the Oversight of the Volunteer Income Tax Assistance Program, but Continued Effort Is Needed
to Ensure the Accuracy of Services Provided (Reference Number 2006-40-004, dated November 2005).
                                                                                                      Page 2
                          Oversight and Accuracy of Tax Returns Continue to Be
                        Problems for the Volunteer Income Tax Assistance Program



Lastly, although a comprehensive quality assurance process was proposed, obstacles prevented
the implementation of an effective quality assurance process.
In the most recent report, we recommended the IRS revise the Form 13614, develop a process to
ensure Quality Alerts are distributed to all VITA volunteers, ensure SPEC Volunteer Site
Information Sheets (Form 13715) are received from each VITA site and accurately processed for
use by IRS toll-free telephone assistors, and pursue methods to achieve the planned objectives
for the quality assurance process. In response, IRS management committed to revising the
Form 13614, 5 requiring use of the newly designed Form 13715 in an effort to improve on the
accuracy of site information, developing procedures for continuous site information updates, and
conducting calls to VITA appointment-only sites to test site information accuracy. Additionally,
management noted its plan for a three-tier approach to its Volunteer Return Preparation Program
Quality Improvement Plan would include site reviews, shopping reviews, and tax return reviews.

Scenarios used by auditors reflected characteristics of taxpayers that seek
assistance from the VITA Program and included tax law topics that tested
volunteers’ use of tools designed to assist in the accurate preparation of tax
returns
To ensure the scenarios used in this review reflected the characteristics of taxpayers that seek
assistance from the VITA Program, we developed 2 scenarios based on the tax filing
characteristics of the 591,629 individuals that used a community-based VITA site to have their
Tax Year 2004 tax returns prepared.6 These taxpayers earned approximately $14,734 annually,
on average. Figure 2 provides additional key characteristics of these individuals.




5
    Appendix VII provides a copy of the Form 13614.
6
    This is the most recent complete year of data the IRS has for the VITA Program.
                                                                                           Page 3
                     Oversight and Accuracy of Tax Returns Contihue to Be
          '
                   Problems for the Volunteer lncome Tax Assistance Program



                      Figure 2: General Characteristics of the
              Tax Year 2004 Tax Returns Prepared by the VITA Program




   Tax Returns Preuared W ~ t hN o Deoendent Exem~hons   Y     390.703


* These four credits were included in the scenarios used by the TIGTA.
Source: IRS nranagement informat~onsystem containing all Tau Year 2004 tax return dala.



                                                                                          Page 4
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



Further, our scenarios were designed to include tax law topics that assessed the volunteers’ use
of the tools the SPEC function designed to ensure accurate tax returns are prepared. The two
scenarios included tax topics related to four of the top six credits taxpayers most often claimed
on their Tax Year 2004 VITA-prepared tax returns (see those marked with an asterisk (*) in
Figure 2). The dollar amount of these 4 credits represents over 52 percent (in excess of
$373 million) of the over $712 million in refunds shown on the tax returns for these taxpayers.
Taxpayers whose tax returns include 1 or more of the 4 credits in our scenarios accounted for
262,421 (44 percent) of the 591,629 tax returns prepared as based on our analysis of all Tax Year
2004 VITA prepared tax returns. The two scenarios developed for this review are as follows:
Scenario 1 – The taxpayer is divorced and lives with his or her 10-year-old child. The taxpayer
had the same job working as a clerk throughout 2005. Wages reported on the Wage and Tax
Statement (Form W-2) totaled $28,383. The taxpayer was paid bimonthly and contributed to a
401(k) plan. The taxpayer received an Interest Income Statement (Form 1099-INT) totaling
$82.12. As part of the taxpayer’s divorce, the taxpayer signed a Release of Claim to Exemption
for Child of Divorced or Separated Parents (Form 8332). The taxpayer receives $275 a month
for child support. The taxpayer had dependent care expenses totaling $946.
An accurately prepared tax return would result in the taxpayer receiving a refund of $730. The
tax return preparer would have correctly determined the taxpayer’s filing status was Head of
Household and the dependency exemption could not be claimed because the taxpayer signed a
Form 8332 releasing the exemption to the taxpayer’s ex-spouse. Additionally, the taxpayer
qualified for the Earned Income Tax Credit of $408 but not the Child Tax Credit because the
child could not be claimed as a dependent. The taxpayer would qualify for a Child and
Dependent Care Credit of $265 and a Retirement Savings Contribution Credit of $71.
Scenario 2 – The taxpayer is single, has never been married, and lives with his or her sister. The
taxpayer has 2 children, ages 9 and 12, that live with the taxpayer in the home of the taxpayer’s
sister during school vacations, including the months of June, July, and August. The children live
with the other parent during the school year. The taxpayer works a part-time evening job as a
cashier and is paid $13,315. The taxpayer’s sister earns $52,000 a year. The taxpayer attends
college part time, and the cost is paid for by the taxpayer’s sister.
An accurately prepared tax return would result in the taxpayer owing $1. The preparer would
have correctly determined the taxpayer’s filing status was Single. Additionally, because the
taxpayer did not provide more than one-half of the support for the children, they could not be
claimed as dependents for Child Tax Credit purposes. The Earned Income Tax Credit would not
be available to the taxpayer due to earned income exceeding the maximum allowable amount and
because the children did not live with the taxpayer for more than one-half of the year.
This review was performed at the IRS Customer Assistance, Relationships, and Education
function in the Wage and Investment Division Headquarters in Atlanta, Georgia, during
the period January through May 2006. During January and February 2006, TIGTA

                                                                                           Page 5
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



auditors visited SPEC function Territory offices in Phoenix, Arizona; Tampa, Florida;
New York, New York; and Houston, Texas, to assess Territory office filing season readiness.
Additionally, from February through March 2006, TIGTA auditors performed 36 anonymous
visits and had 36 tax returns prepared at judgmentally selected VITA sites located in 12 States.
Appendix IV provides the volume of tax returns prepared by the VITA sites in the 12 States
during the 2006 Filing Season. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II




                                                                                           Page 6
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program




                                 Results of Review

Inaccurate Tax Returns Resulted From Inconsistent Quality of Service
at Volunteer Income Tax Assistance Sites
The SPEC function is using established processes that have increased its ability to oversee and
monitor the VITA Program. In addition, it has established new initiatives to further improve its
communications with its partners. These include:
•   Holding SPEC Function and Partner Conference Calls. These calls provide an
    opportunity for the SPEC function and its VITA Program partners to maintain continuous
    communications concerning the VITA Program. The calls serve as a forum for participants
    to share concerns and work together to identify solutions to any problems, discuss
    development of best practices for program-wide implementation, and identify product
    improvement opportunities.
•   Issuing Quality Alerts. Throughout the 2006 Filing Season, in response to emerging trends
    relating to the quality of tax returns being prepared, the SPEC function developed and issued
    eight Volunteer Quality Alerts. These Alerts direct volunteers’ attention to certain tax issues
    that may adversely affect the accuracy of tax returns. They also provide IRS management
    with a vehicle to immediately address issues brought to their attention by the TIGTA. Due to
    the SPEC function’s efforts to heighten partner awareness of the importance of effective
    Alert distribution, 32 (89 percent) of 36 VITA sites visited were receiving Alerts, a
    22 percent increase over the 2005 Filing Season.
•   Creating a SPEC Function Partner/Volunteer Public Webpage. This webpage was
    developed to enhance communication of key messages to the VITA volunteer community. It
    serves as a comprehensive one-stop resource center for access to partner and volunteer news,
    training, and tax reference materials.
•   Issuing Return Reviewer Alerts. To increase ongoing internal communications, the
    SPEC function developed Reviewer Alerts. These Alerts are distributed within the
    SPEC function and are designed to provide timely feedback to SPEC function employees
    involved in the tax return review quality process. During the 2006 Filing Season, a total of
    six Reviewer Alerts were developed and issued.
The SPEC function continues its commitment to providing top-quality service to all taxpayers,
especially low- to moderate-income, elderly, disabled, and limited-English-proficient taxpayers.
This commitment has resulted in the increased accuracy rate associated with tax returns prepared


                                                                                            Page 7
                                                      Oversight and Accuracy of Tax Returns Continue to Be
                                                    Problems for the Volunteer Income Tax Assistance Program



at VITA sites since the TIGTA performed its first VITA Program review during the 2004 Filing
Season (see Figure 3).
                                                    Figure 3: Overall Tax Return Accuracy Rates for the
                                                            2004, 2005, and 2006 Filing Seasons

                                                    45
              Accuracy Rate Total for Tax Returns
               Prepared Accurately (Percentage)




                                                    40                                                       39
                                                    35                                  34
                                                    30
                                                    25
                                                    20
                                                    15
                                                    10
                                                     5
                                                     0             0
                                                         2004 Filing Season   2005 Filing Season   2006 Filing Season
                                                                                   Accuracy Rate


       Source: Tax returns prepared for TIGTA auditors by VITA volunteers during the 2004, 2005, and
       2006 Filing Seasons.

However, significant barriers continue to reduce the SPEC function’s ability to provide quality
customer service at VITA sites and to measure the accuracy of prepared tax returns. These
barriers include volunteers not adhering consistently to the SPEC function’s processes for
ensuring the accuracy of tax returns and the SPEC function’s inability to implement an effective
quality assurance process. As a result, 22 (61 percent) of the 36 tax returns prepared by VITA
volunteers for TIGTA auditors were incorrect. If 4 (18 percent) of these incorrectly prepared tax
returns had been filed, the taxpayers would not have received $4,411 in tax refunds to which they
were entitled. Alternatively, if the remaining 18 (82 percent) of the 22 incorrectly prepared tax
returns had been filed, the IRS would have refunded $31,828 incorrectly. See Appendix V for
details.
Both scenarios used in this review involved tax law issues included in the Basic Course
curriculum all volunteers are required to complete successfully before they are certified to
engage in the tax return preparation process.7 However, IRS management raised concerns that
the Form 8332 used in Scenario 1 related to only a minimum number of taxpayers that have their

7
  Guidelines set forth minimum required training topics covering adjustments to income and tax computation, filing
status, dependents, the Earned Income Tax Credit, and the Child Tax Credit. To demonstrate they have received an
appropriate minimum level of training, VITA volunteers must earn a “passing” score of 70 percent or better on a tax
law examination.
                                                                                                                        Page 8
                            Oversight and Accuracy of Tax Returns Continue to Be
                          Problems for the Volunteer Income Tax Assistance Program



tax returns prepared by the VITA Program. The IRS stated that its electronic tax data showed
only 556 tax returns prepared by VITA volunteers during the 2006 Filing Season included
Form 8332. Therefore, they believe using Form 8332 in a scenario created an unrealistic
situation and adversely affected the accuracy rate. However, there was no way to determine how
many times the Form 8332 applied to the taxpayers’ situations and was not appropriately
included, as our scenario results show. Nevertheless, we recomputed the accuracy rate by
removing those tax returns on which the Form 8332 was the only error. This increased the
accuracy rate from 39 percent to 42 percent.
Figure 4 shows a 3-year trend analysis of tax law accuracy at VITA sites for the tax law issues
included in our 2 scenarios.
                  Figure 4: Comparison of Tax Law Accuracy Rates for the
                            2004, 2005, and 2006 Filing Seasons8



                                  100
                                   80
                 A ccuracy Rate




                                                                                                81
                  (Percentage)




                                                 74                                       77             77
                                   60                            69   66
                                                       61
                                                                            56                                54 53
                                   40
                                            37
                                   20
                                                                                     20
                                    0
                                        Earned Income Credit   Child Tax Credit      Filing Status       Dependents

                                                                      Tax Law Topics
                                                      2004 Filing Season   2005 Filing Season    2006 Filing Season




             Source: Tax returns prepared for TIGTA auditors by VITA volunteers during the 2004, 2005,
             and 2006 Filing Seasons.

See Appendix VI for 2006 Filing Season results by scenario.

Volunteers did not follow procedures to ensure the accurate preparation of tax
returns
Central to the SPEC function’s strategy for ensuring the accuracy of tax returns completed by
VITA volunteers is its Integrated Return Preparation Process Model, which outlines a

8
 Only tax law topics included in both follow-up reviews and this review are included in this comparison (see
Appendix VI for a complete list of tax topics addressed in this review).
                                                                                                                      Page 9
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



step-by-step method for preparing accurate tax returns at VITA sites. The Model’s premise is
that, for VITA volunteers to complete accurate tax returns, they must ask certain questions about
the taxpayers and, if relevant, their families. The Model reinforces the importance of completing
a Form 13614 and conducting a probing interview using the Volunteer Resource Guide
(Publication 4012).
The Model also outlines the need to ensure a quality review of the completed tax return is
conducted. To measure the quality of each tax return, the quality review process is designed to
ensure calculations and the name(s) and Social Security Number(s) of the taxpayer(s), including
a spouse and any dependents, are correct. Additionally, it requires a validation to determine
whether sufficient questions were asked to establish the taxpayer’s filing status and whether
income from all Forms W-2 and other income documents were reported on the tax return.
The two previous TIGTA reports raised concerns regarding volunteers not consistently using the
tools designed to assist in ensuring tax returns are prepared accurately. In this current review, we
continued to find that key controls designed by the SPEC function to assist in accurate tax return
preparation were not followed at VITA sites consistently. For example:
•   The local intake sheets did not include all critical questions. The SPEC function
    developed the Form 13614, an intake sheet that contains a standardized list of required intake
    questions, to guide VITA volunteers in asking taxpayers basic questions about themselves.
    The purpose of the Form 13614 is to open dialogue between the taxpayer and the VITA
    volunteer, providing the opportunity for the volunteer to get acquainted with the taxpayer’s
    unique set of facts. Each VITA site is required to use an intake sheet. For the 36 sites
    visited, all sites used an intake sheet. This represents an improvement over the 2005 Filing
    Season when 5 (14 percent) of 35 sites did not use an intake sheet.
    A VITA site is permitted to create its own intake sheet. However, intake sheets must include
    those questions designated by the SPEC function as required and included on the
    Form 13614. These required questions are presented in Appendix VII. For the
    36 VITA sites visited, 5 (14 percent) used an intake sheet other than the Form 13614 that did
    not include all the required critical questions. Although this represents a 13 percent decrease
    compared with the 2005 Filing Season results, incomplete local intake sheets remain a factor
    contributing to the preparation of inaccurate tax returns at VITA sites.
•   VITA volunteers did not ensure intake sheets were completely prepared and/or were
    used during the tax return preparation process. Contributing to each of our inaccurate
    tax returns was the lack of a completely prepared intake sheet and/or the volunteer not using
    the information included on the intake sheet. In fact, auditors noted there was no interaction
    between the auditor and the volunteer during the tax return preparation process or a review of
    information contained on the intake sheet.
    For 11 (31 percent) of 36 sites visited, the intake sheet was not prepared completely.
    Incomplete preparation of the intake sheets occurred at those sites where a screener or

                                                                                           Page 10
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



   volunteer prepared the intake sheet (7 of the 11 sites) or where the auditor was not allowed
   sufficient time or told not to complete the entire intake sheet (4 of 11 sites). Information
   found missing from the screener/volunteer-prepared intake sheet included answers to whether
   the taxpayer signed Form 8332 to release the dependent exemption to another person;
   whether someone else could claim the child for Earned Income Tax Credit purposes; and
   whether the taxpayer made a contribution to a retirement plan, had interest income, or had
   daycare expenses.
   Additionally, volunteers did not use the information contained on the intake sheet to ensure
   the accuracy of tax law determinations they were deciding. For example:
       •   The Dependent Exemption was incorrectly applied in 11 instances even though the
           intake sheet indicated that a Form 8332 was signed.
       •   Interest Income was not correctly included on five tax returns despite the intake
           sheets indicating the taxpayers had received interest income.
As shown in Figure 5, when the intake sheet is prepared completely, it provides a good starting
point for volunteers to determine what tax topics might apply to a tax return. Discussions with
VITA volunteers found that volunteer understanding of the purpose and use of intake sheets was
not consistent. However, the intake sheet does not always provide complete information and
should be used with other tools and reference materials, including Publication 4012, to provide
reasonable assurance that a tax return will be prepared accurately.




                                                                                          Page 11
                     Oversight and Accuracy of Tax Returns Continue to Be
                   Problems for the Volunteer Income Tax Assistance Program



           Figure 5: Comparison of Tax Issues Included in TIGTA Scenarios
                      to Key Information Captured on Form 13614




Source: Intake sheet and Publication 4012. *IRA = Individual Retirement Arrangement.


                                                                                       Page 12
                          Oversight and Accuracy of Tax Returns Continue to Be
                        Problems for the Volunteer Income Tax Assistance Program



•     VITA volunteers did not use the Publication 4012 when making tax determinations. In
      28 (78 percent) of 36 sites visited, the volunteers did not use the Publication 4012 during the
      tax return preparation process.9 In all 22 instances where the tax return was incorrectly
      prepared, the Publication 4012 was not used. Last year we reported the Publication 4012 was
      not used during the tax return preparation process for 25 (71 percent) of 35 sites.
•     VITA volunteers did not ensure completed tax returns were subjected to the required
      quality review process. For 21 (58 percent) of 36 tax returns prepared at the VITA sites,
      there was no onsite quality review completed. This is an increase over the 40 percent from
      last year. When VITA volunteers completed the tax returns, they did not review the tax
      returns with the taxpayers and/or the tax returns were not reviewed by other volunteers.
      Additionally, checklists developed to guide and assist VITA volunteers when conducting
      quality reviews of tax returns were not used despite SPEC function guidelines that require tax
      returns to be quality reviewed with the aid of the checklists. Volunteers and/or site
      coordinators explained that quality reviews were not always performed for a number of
      reasons, including they were confident in their tax return preparation skills, they did not have
      the time to review because of the large volume of taxpayers waiting to have tax returns
      prepared, or they relied on the tax preparation software to perform a quality review.
•     VITA volunteers did not receive Quality Alerts. Twenty (56 percent) of 36 volunteers
      interviewed stated they had not received Quality Alerts as of the date of our visit to the site,
      despite 32 of the 36 sites confirming receipt of these Quality Alerts. As a result, these
      volunteers were not alerted to tax issues that may have adversely affected the accuracy of tax
      returns they prepared. We did not track this in prior years and, as a result, we are unable to
      make a comparison.
Incorrectly prepared tax returns not only increase the risk of taxpayers receiving erroneous
payments, they also may create additional burden on taxpayers if the IRS later finds potential
errors on the tax returns. These taxpayers may be required later to face the demands of an IRS
audit of their tax returns due to potential errors identified on the returns.

Improvements are needed to ensure the Volunteer Return Preparation Program
Quality Improvement Plan provides accurate measures
The SPEC function has developed procedures and controls as part of
its Volunteer Return Preparation Program Quality Improvement Plan.
However, certain procedures are not being followed and not all
controls are effective. This is understandable because the Quality
Improvement Plan is still in the early stages of implementation.



9
    Three of the 28 instances involved VITA sites where no Publication 4012 was available.
                                                                                              Page 13
                     Oversight and Accuracy of Tax Returns Continue to Be
                   Problems for the Volunteer Income Tax Assistance Program



In addition, many of our concerns are inherent to a program this large dealing with volunteers
and a complex tax system. Volunteers and their partner organizations play a significant role in
the IRS’ tax return preparation program. The IRS is moving away from providing tax
preparation assistance at its Taxpayer Assistance Centers and is relying more on the
VITA Program and its partners to provide this service. This presents significant challenges to
the IRS and the SPEC function. The strengths of the VITA Program lie in its volunteers and
partners. However, relying on volunteers to deliver the Program has inherent risks.
The SPEC function must balance the needs and desires of the volunteers with the IRS’ mission
and goals. As it strives to achieve its mission and goals and provide accountability for its
operations, the SPEC function will have to continually assess and evaluate its internal control
structure to ensure the VITA Program is providing accurate and reliable measurements,
particularly measurements related to the accuracy of tax returns prepared.
In response to concerns raised during prior TIGTA reviews, for the 2006 Filing Season, the
SPEC function implemented the comprehensive Volunteer Return Preparation Program Quality
Improvement Plan. The Quality Improvement Plan follows an integrated approach that includes:
•   Site Reviews to measure the administrative aspects of a volunteer site. These reviews are
    used to assess procedures and site readiness using the Volunteer Return Preparation Program
    Site Review (Form 6729). Employees of the SPEC function visit the VITA sites and assess
    whether the sites are operating as intended. For example, these documented reviews include
    checks to determine if the sites have the required reference materials available for the
    volunteers, if volunteers have completed the required training, and if taxpayer information is
    safeguarded.
•   Shopping Reviews to measure the taxpayer’s qualitative experience. These reviews involve
    unannounced/anonymous visits to sites by a neutral third-party reviewer playing the role of a
    taxpayer using made-up scenarios. The SPEC function relied on the TIGTA for this
    component of the quality assurance process. On a weekly basis, we reported to SPEC
    function management current results of tax returns prepared during auditors’ visits to VITA
    sites.
•   Tax Return Reviews to measure whether the tax law was applied properly for critical items
    and resulted in the correct tax determinations. The volume of tax return reviews and the
    specific sites included in this process were based on a statistical sampling plan designed by
    the IRS Statistics of Income function. A SPEC function tax specialist conducts these
    reviews. To ensure objectivity, the tax specialists do not review sites they normally oversee.
    The tax specialists contact the sites to be reviewed at least 5 days prior to the visit, alerting
    them to the upcoming review. Once at the site, the tax specialist is to select randomly three
    tax returns to review. The reviews should be performed after the site completes a quality
    review of the tax return and while the taxpayer is present. If a tax return is found to be
    inaccurate, it will be sent back to the volunteer preparer to be corrected. The tax specialist is

                                                                                             Page 14
                       Oversight and Accuracy of Tax Returns Continue to Be
                     Problems for the Volunteer Income Tax Assistance Program



     responsible for recording the results of each tax return reviewed on the Volunteer Return
     Preparation Program - Return Review (Form 6729C). The Form 6729C information is used
     to compile accuracy reports, which are provided at the national level and stratified by four
     partner types (VITA, Military, Tax Counsel for the Elderly/American Association of Retired
     Persons, and Tax Counsel for the Elderly/Non-American Association of Retired Persons).
We determined certain procedures are not being followed and not all controls are effective for
the Volunteer Return Preparation Program Quality Improvement Plan process to meet its
intended goals, including ensuring the VITA Program is providing taxpayers with consistently
high-level service. For example:
•    Tax returns are not selected randomly during the tax return review process.
     Volunteers, rather than the tax specialist, often selected which tax returns were to be
     reviewed. We notified SPEC function management of this condition and they immediately
     held a national teleconference to reiterate the importance of random selection. At this point,
     however, the tax return review process was nearing completion.
•    Territory managers10 are not in compliance with the directive that they accompany tax
     specialists on at least one of their required tax return reviews. Territory managers serve
     as the primary control to ensure SPEC function tax specialists are correctly and consistently
     conducting tax return reviews. The SPEC function guidelines require Territory managers to
     accompany each of their tax specialists on at least one tax return review to oversee and
     review the work of the responsible tax specialists. However, our survey of the
     30 Territory managers found that 22 (73 percent) were not in compliance with this
     SPEC function tax return review guideline. See Figure 6 for a summary of our survey
     results.




10
  The SPEC function consists of 42 Territory offices geographically distributed around the United States to provide
direct oversight to local VITA sites.
                                                                                                          Page 15
                            Oversight and Accuracy of Tax Returns Continue to Be
                          Problems for the Volunteer Income Tax Assistance Program



          Figure 6: Summary Results - Oversight of Tax Return Review Process

                                                                                     If Applicable, for the
                                                                                    Reviews Conducted, Did
                            How Many of the                                           You Perform a Tax
                             Tax Specialists   Was Responsible                      Return Review Yourself
      How Many Tax         Involved in the Tax    Manager in   If Applicable, Did     and Compare Your
      Specialists That       Return Review     Compliance With     You Retain        Results to the Results
       You Oversee        Process Had at Least    Managerial     Documentation       Compiled by the Tax
     Participate in the       One Review            Review     Detailing Results of Specialist for That Tax
        Tax Return           Conducted on         Guidelines?    Your Review?              Return?
     Review Process?             Them?           Yes       No    Yes        No        Yes            No
            236                    111            8        22      7        19          8             18
                                 47.03%        26.67% 73.33% 26.92% 73.08% 30.77%                  69.23%
 Source: Results of the TIGTA survey of all SPEC function Territories.

•      Documentation supporting VITA Program accuracy results is not maintained. The
       SPEC function entered an agreement with its partners participating in the VITA Program that
       ensures source documentation used as part of the tax return reviews would not be maintained
       (e.g., the Form 13614, Forms W-2, Forms 1099, Social Security cards). Consequently,
       neither the SPEC function nor external oversight organizations are able to verify the validity
       of the accuracy of tax return review reporting.
•      Tax return reviews create bias if the volunteers and tax specialists know they are being
       observed and/or reviewed. Tax specialists announce 1 week in advance of when they will
       be visiting the VITA sites. This allows the volunteers an opportunity to prepare and
       reinforce their controls and procedures. In addition, once tax specialists are onsite,
       volunteers are aware they are being reviewed. This physical presence establishes an artificial
       situation for the volunteers and inhibits the accurate assessment of performance. The same
       situation occurs when the Territory manager accompanies the tax specialist and observes the
       tax return reviews.

Performance measures need to be based on program-related characteristics and
performance data, and must be sufficiently complete, accurate, and consistent
The Government Performance and Results Act of 199311 directs Federal Government agencies to
focus on their missions and goals and provides guidance on how to achieve those goals and how
to improve their structural organizations and business processes. Performance data must be used
to improve organizational processes, identify performance gaps, and set improvement goals.


11
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 16
                          Oversight and Accuracy of Tax Returns Continue to Be
                        Problems for the Volunteer Income Tax Assistance Program



Performance measures need to be verified and validated. Program performance is to be
measured against those goals and the progress reported publicly.
Currently, the SPEC function reports two performance measures: Percent of Individual Returns
Processed Electronically by SPEC Volunteers and Number of Taxpayer Contacts. The
SPEC function, unlike the Taxpayer Assistance Center12 Program or the toll-free telephone
operation, does not have a performance measure to gauge accuracy. For example, the Taxpayer
Assistance Center Program measures and reports the accuracy rate of tax return preparation
while both the toll-free telephone operation and Taxpayer Assistance Program measure and
report the accuracy of tax law and account questions answered. However, both Programs have
implemented or are implementing quality assurance systems that collect the data needed to
measure, validate, and report accuracy.
Although the SPEC function also is implementing a quality assurance system, it has not
implemented processes to both collect data on the accuracy of its tax return preparation program
and ensure it is complete, accurate, and consistent. To do so, the SPEC function must have a
quality assurance system that conducts independent reviews and maintains sufficient
documentation on the tax returns prepared and the subsequent reviews of those tax returns to
validate and verify the accuracy results. Without these two elements, the VITA Program does
not have a means to measure and report its performance as it relates to the accuracy of its tax
return preparation.
However, at the request of its partners, the SPEC function has agreed not to conduct
unannounced tax return reviews and not to maintain documentation to support tax return reviews.
The SPEC function and its partners believe retaining additional documentation on taxpayers
creates unnecessary privacy and security risks, thus increasing the risk of identity theft. Also,
additional documentation and a new system of records require the IRS to seek additional
comments from the public and would not be without additional costs. IRS officials stated that
the infrastructure required to retain these documents increases the costs of VITA Program.
These concerns are not without merit. These decisions reflect the importance of the IRS
maintaining effective partner relationships. Nevertheless, it is critical that the IRS and the
SPEC function have a reliable method of reporting the accuracy of tax return preparation at
VITA sites. The SPEC function must have internal controls and a quality assurance system to
provide sufficient oversight of the VITA Program. If control of the VITA Program becomes
blurred, it could diminish the effectiveness of the internal controls and SPEC function’s ability to
effectively oversee the VITA Program.




12
     Taxpayer Assistance Centers are operated by the IRS to provide walk-in service for taxpayers.
                                                                                                     Page 17
                       Oversight and Accuracy of Tax Returns Continue to Be
                     Problems for the Volunteer Income Tax Assistance Program



This concern was also expressed by the National Taxpayer Advocate during recent testimony.
In written Congressional testimony,13 the National Taxpayer Advocate states:
        . . . The IRS is increasingly relying on partners to deliver core IRS services.
        Clearly, partners are very important to effective tax administration, and I applaud
        the efforts of dedicated professionals and volunteers in assisting taxpayers.
        However, this reliance raises several concerns. First, when the IRS relies on
        partners to deliver a message, we need to study what happens to the message in
        the course of delivery . . . What are the true costs of effective oversight over these
        partners? Who conducts such oversight and bears the cost? If taxpayers bear the
        cost, will they continue to comply if the cost is too great or the quality too poor?
        Will the IRS actually realize any savings or will it incur more expense through
        additional enforcement activity that could be avoided if the IRS itself delivered the
        assistance? . . .
Without an effective quality assurance process, management lacks sufficient information,
including verifiable tax return accuracy measures, to monitor VITA Program quality and
properly manage corrective actions. Further, without an effective quality assurance process, the
risk continues that VITA volunteers will inappropriately apply the tax law, which could result in
incorrectly prepared tax returns and increases in the annual Federal tax gap.14

VITA site information used by IRS toll-free telephone assistors was not accurate
Though the SPEC function Territory offices maintain the SPEC Volunteer Site Information
Sheets (Form 13715) that provide the locations, operating hours, and services provided, our
sample of 117 Forms 13715 showed that information for 39 (33 percent) of 117 VITA sites
tested was not accurately entered into the system that is used by toll-free telephone assistors. In
all 39 instances, the errors identified resulted from inaccurate manual transfer of information
from the Forms 13715 into the system. For those taxpayers that rely on the IRS to locate a VITA
site or to determine the hours a particular site is open or the services it provides, inaccurate
information can create significant burden. Figure 7 presents a summary of the errors identified.




13
   Written Statement of National Taxpayer Advocate before the Subcommittee on Transportation, Treasury, the
Judiciary, Housing and Urban Development, and Related Agencies Committee on Appropriations United States
Senate, April 27, 2006.
14
   The IRS defines the gross tax gap as the difference between what taxpayers voluntarily pay and the amount they
actually owe in a calendar year. The IRS estimates the annual gross tax gap to about $345 billion.
                                                                                                          Page 18
                     Oversight and Accuracy of Tax Returns Continue to Be
                   Problems for the Volunteer Income Tax Assistance Program



             Figure 7: Summary of VITA Site Information Errors Identified




                                                                VITA Site Languages
            VITA Site    Date VITA      Date VITA    Days of    Hours of Offered at
            Address       Site Will      Site Will Operation Operation VITA Site
               Not       Open Not       Close Not for VITA Site    Not       Not
            Accurate     Accurate       Accurate Not Accurate Accurate     Accurate
               11            11             10          12         10         21

    Source: Comparison of Forms 13715 with the information available to IRS toll-free telephone assistors.

The guidelines developed by the SPEC function to ensure accurate site information require that
the Forms 13715 be used to secure accurate site operating information. The Forms 13715
provide the IRS with updated site locations, operating hours, and current services offered to
assist taxpayers based on their specific needs. These Forms should have been completed by the
site coordinator or partner familiar with the site operations no later than December 15, 2005.
Upon completion, the original Form must be forwarded to the appropriate SPEC function
Territory office. The SPEC function Territory offices are responsible for ensuring all site
information is entered accurately to the system used by toll-free telephone assistors.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 1: Require VITA sites to use the Form 13614, with each site having the
option to append the Forms 13614 with supplemental questions as deemed necessary. In
addition, require that Form 13614 be prepared by the taxpayer to ensure it is prepared accurately.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will continue to require each site to use Form 13614 or the partner’s
       equivalent to prompt return preparers to ask questions necessary for accurate completion
       of the tax returns. In addition, the SPEC function will revise Form 13614 to require
       completion of identifying information by the taxpayer and completion of return
       information by the return preparer.
Recommendation 2: Ensure training continues to emphasize the need to use the various
quality assurance tools, including using the Form 13614, referring to reference guides, and
ensuring all tax returns are subjected to the required quality review. In addition, develop
oversight processes to ensure tools are used that may include requiring volunteers and taxpayers
to initial Forms 13614 confirming volunteers reviewed the information with the taxpayers.
                                                                                                       Page 19
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will revise its training materials for both the return preparation and review
       processes. The SPEC function also will revise tools (forms, training, and guidance
       documents) used in the Volunteer Return Preparation Program Quality Improvement Plan
       based on findings from reviews, partner and employee feedback, and TIGTA results.
       Lastly, the SPEC function will continue to emphasize the requirement that all tax returns
       are subject to quality review. However, because Form 13614 is a tool and not a return,
       and retention of the Form is not required, the IRS believes signatures or initials by the
       volunteers or taxpayers are not necessary.
Recommendation 3: Establish a process to ensure accuracy results are verifiable and
validated. This process should ensure source documentation is maintained to support tax return
reviews. In addition, to improve the integrity of the review process, ensure reviews are
unannounced and tax returns are selected randomly by the SPEC function employee performing
the review.
       Management’s Response: IRS management agreed with this recommendation in
       part. The SPEC function will establish an independent process to validate the accuracy
       reported and provide systemic improvements. The SPEC function will implement
       shopping reviews that use scenarios representative of its customer base to assess the
       customer experience. Finally, the SPEC function will strengthen the process for selection
       of returns for review by SPEC function employees.
       However, the IRS did not agree with requiring partners to maintain source documents
       used by volunteers in preparing tax returns. The IRS believes this likely would erode
       effective IRS-partner relations by significantly increasing partner operational burden and
       costs, as well as require considerable new security infrastructure. The IRS also did not
       agree that reviews should be unannounced because announced visits promote
       collaborative ownership of quality service. The IRS believes there is no evidence that
       announced visits skew return selection or accuracy results any more or less than
       unannounced visits.
       Office of Audit Comment: In other IRS service areas such as the Taxpayer
       Assistance Center Program and the toll-free telephone operation, the IRS has recognized
       the importance of maintaining documentation to support quality and ensure the correct
       application of the tax law. Maintaining documentation for quality review purposes is a
       standard practice throughout the IRS and private industry. If documentation is not
       maintained, the IRS does not have the ability to validate its quality results.
       In addition, the physical presence of a reviewer establishes an artificial situation for the
       volunteers and inhibits the accurate assessment of performance. The IRS has
       acknowledged that, when using direct observations in its Taxpayer Assistance Center
       Program and toll-free telephone operation, the results were skewed. Thus, the IRS has

                                                                                             Page 20
                  Oversight and Accuracy of Tax Returns Continue to Be
                Problems for the Volunteer Income Tax Assistance Program



      used and is using Contact Recording instead of direct observations to provide quality
      review results. Because Contact Recording is not currently a viable option for the VITA
      Program, the IRS should attempt to alleviate this limitation by not announcing visits,
      which allows the volunteers an opportunity to prepare and reinforce their controls and
      procedures.
Recommendation 4: Develop a process to verify periodically whether information is entered
accurately from the Form 13715 into the system used by toll-free telephone assistors.
      Management’s Response: IRS management agreed with this recommendation. The
      SPEC function will continue to use the validation process developed during the 2006
      Filing Season and will enhance the process further by including the following:
                 •   SPEC management will be required to validate input in the SPEC
                     Taxpayer Assistance Reporting System site module and certify its
                     accuracy.
                 •   Form 13715 will require the initials of the employee inputting the data in
                     the SPEC Taxpayer Assistance Reporting System and of management’s
                     concurrence with its accuracy.




                                                                                        Page 21
                       Oversight and Accuracy of Tax Returns Continue to Be
                     Problems for the Volunteer Income Tax Assistance Program



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers received quality service,
including the accurate preparation of their income tax returns, when visiting the Volunteer
Income Tax Assistance (VITA) sites. We also assessed the ease with which taxpayers can locate
VITA sites and obtain information about the specific services offered and assessed the Internal
Revenue Service’s (IRS) process for ensuring the overall quality of VITA Program operations.
To accomplish these objectives, we:
I.      Determined whether controls were effective to ensure taxpayers are provided with
        accurate information on the locations, hours of operation, and types of services
        (e.g., languages for which assistance is provided, whether an appointment is necessary)
        VITA sites provide.
        A. Determined the process followed by the IRS to populate the VITA site list and ensure
           the information contained in the list remains accurate.
        B. Randomly selected 117 VITA sites to verify the accuracy of the information (e.g., the
           locations, hours of operation, and types of services) provided to the IRS toll-free
           telephone assistors. The VITA sites were selected from each of the four Stakeholder
           Partnerships, Education, and Communication (SPEC) function Area Offices1 to verify
           whether site information detailed on the SPEC Volunteer Site Information Sheets
           (Form 13715) for each site was accurately entered to the system relied on by toll-free
           telephone assistors. The population of VITA sites is not fixed, and VITA sites open
           and close throughout the filing season.2 Therefore, we could not determine the total
           population of VITA sites and could not do a statistical sample.
        C. Where we found the location and service information provided to taxpayers was
           incorrect, determined why and attempted to measure the potential impact on
           taxpayers.
II.     Determined whether the VITA sites were preparing individual income tax returns
        accurately, based on facts provided by the taxpayers.
        A. Obtained and analyzed an extract of Tax Year 2004 tax returns prepared at
           community-based VITA sites to identify characteristics of these taxpayers. This


1
  The Stakeholder Partnerships, Education, and Communication function is organized into 4 Area Offices covering
42 Territory offices.
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 22
                    Oversight and Accuracy of Tax Returns Continue to Be
                  Problems for the Volunteer Income Tax Assistance Program



          information was the basis for the scenarios developed and used by Treasury Inspector
          General for Tax Administration auditors. Tax Year 2004 data were used because they
          were the most current and complete data available.
       B. To assess the validity of the Tax Year 2004 data, sampled the information for five
          taxpayer accounts and compared the information with a separate system of records
          and verified the information in our extract reliably reflected the information taxpayers
          reported on their tax returns.
       C. Selected a judgmental sample of 36 VITA sites nationwide and attempted to have a
          tax return prepared. The VITA sites were selected judgmentally from each of the
          four SPEC function Area Offices and included at least two States from each Area
          Office. The VITA site selection was based on the volume of tax returns prepared by
          the sites, resources, and the sites’ proximity to major cities. See Appendix IV for a
          list of VITA sites visited.
       D. Determined whether the tax return prepared by the volunteer was correct, including
          whether the volunteer properly evaluated eligibility for deductions, exemptions, and
          credits claimed or denied.
       E. Where we found that individual income tax returns were prepared incorrectly,
          determined why and attempted to measure the potential impact on taxpayers and tax
          revenue.
III.   Determined whether the IRS’ process for measuring the quality and accuracy of the
       VITA Program is effective.
       A. Determined actions taken in responses to prior Treasury Inspector General for Tax
          Administration audits to improve quality and accuracy.
       B. Interviewed management to identify actions taken to improve quality and accuracy.
       C. Determined whether the Volunteer Return Preparation Program Quality Improvement
          Plan achieved its objective, including the number of reviews to be completed.
       D. When we found the quality process for measuring the quality and accuracy of the
          VITA Program was not effective, attempted to determine why and the impact on the
          Program.




                                                                                          Page 23
                   Oversight and Accuracy of Tax Returns Continue to Be
                 Problems for the Volunteer Income Tax Assistance Program



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Grace Terranova, Lead Auditor
Pamela DeSimone, Senior Auditor
Robert Howes, Senior Auditor
Jean Bell, Auditor
Roberta Fuller, Auditor
Mary Keyes, Auditor




                                                                                   Page 24
                   Oversight and Accuracy of Tax Returns Continue to Be
                 Problems for the Volunteer Income Tax Assistance Program



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 25
#
                            Oversight and Accuracy of Tax Returns Continue to Be
f
                          Problems for the Volunteer Income Tax Assistance Program




                                                                                                     Appendix IV

               Sites Reviewed and Volume of Tax Returns
                Prepared During the 2006 Filing Season




    Source: Volunteer Income Tar Assistance Program data provided by the Internal Revenue Service for the sites
    included in our review. The term "e-file" means electronicfiling.




    I
      The 2006 Filing Season relates to the processing of Tax Year 2005 tax returns. The filing season is the period
    from January through mid-April when most individual income tax retluns are filed.

                                                                                                               Page 26
                      Oversight and Accuracy of Tax Returns Continue to Be
                    Problems for the Volunteer Income Tax Assistance Program



                                                                                            Appendix V

         Results of Tax Returns Incorrectly Prepared
          at Volunteer Income Tax Assistance Sites

                                    VITA
                                     Site       Correct
                                                Refund            Understated                  Overstated
                                   Refund
  Volunteer Income Tax                or          or
  Assistance (VITA) Sites          Amount       Balance        Balance                    Balance
          Visited                    Due         Due            Due          Refund        Due      Refund
 Phoenix, Arizona                   $1,874           $730                                             $1,144
 Phoenix, Arizona                       $57          $730                        $673
 Los Angeles, California            $1,905           $730                                              $1,175
 Los Angeles, California            $1,466           $730                                                $736
 Lakeland, Florida                  $5,259            -$1        -$5,260
 Saint Petersburg, Florida            $859            -$1          -$860
 Chicago, Illinois                    $761           $730                                                 $31
 Baton Rouge, Louisiana             $2,139           $730                                              $1,409
 Hattiesburg, Mississippi            -$516           $730                      $1,246
 Albuquerque, New Mexico             -$516           $730                      $1,246
 Brooklyn, New York                 $5,259            -$1        -$5,260
 New York, New York                  -$516           $730                      $1,246
 New York, New York                 $2,241           $730                                              $1,511
 Columbus, Ohio                     $2,210           $730                                              $1,480
 Columbus, Ohio                     $1,905           $730                                              $1,175
 Harrisburg, Pennsylvania           $1,976           $730                                              $1,246
 Philadelphia, Pennsylvania           $859            -$1          -$860
 Houston, Texas                     $2,210           $730                                              $1,480
 Houston, Texas                     $5,259            -$1        -$5,260
 Freeport, Texas                    $1,210           $730                                               $480
 Wheeling, West Virginia            $1,945           $730                                              $1,215
 Wheeling, West Virginia            $1,976           $730                                              $1,246
 Totals:                                                        -$17,500       $4,411        $0       $14,328
Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.



                                                                                                    Page 27
                 Oversight and Accuracy of Tax Returns Continue to Be
               Problems for the Volunteer Income Tax Assistance Program



                                                                                      Appendix VI

          Accuracy of Eligibility Determinations




Source: Tax returns prepared for Treasury Inspector General for Tax Administration auditors by
Volunteer Income Tax Assistance volunteers during the 2006 Filing Season. CTC = Child Tax Credit.
NA = not applicable.


                                                                                                Page 28
      Oversight and Accuracy of Tax Returns Continue to Be
    Problems for the Volunteer Income Tax Assistance Program



                                                 Appendix VII

    Tax Preparation Information Sheet




.

                                                         Page 29
                      Oversight and Accuracy of Tax Returns Continue to Be
                    Problems for the Volunteer Income Tax Assistance Program




Source: The Stakeholder Partnerships, Education, and Communication function.




                                                                               Page 30
      Oversight and Accuracy of Tax Returns Continue to Be
    Problems for the Volunteer Income Tax Assistance Program



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                         Page 31
  Oversight and Accuracy of Tax Returns Continue to Be
Problems for the Volunteer Income Tax Assistance Program




                                                     Page 32
  Oversight and Accuracy of Tax Returns Continue to Be
Problems for the Volunteer Income Tax Assistance Program




                                                     Page 33
  Oversight and Accuracy of Tax Returns Continue to Be
Problems for the Volunteer Income Tax Assistance Program




                                                     Page 34
  Oversight and Accuracy of Tax Returns Continue to Be
Problems for the Volunteer Income Tax Assistance Program




                                                     Page 35
